Audit
Report
        ACQUISITION OF THE FIREFINDER (AN/TPQ-47) RADAR



Report No. D-2002-012                           October 31, 2001




             Office of the Inspector General
                 Department of Defense
 Additional Copies

 To obtain additional copies of this audit report, visit the Inspector General, DoD,
 Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
 Distribution Unit of the Audit Followup and Technical Support Directorate at
 (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact the Audit Followup and
 Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
 (703) 604-8932. Ideas and requests can also be mailed to:

                   OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General, Department of Defense
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704

 Defense Hotline

 To report fraud, waste, or abuse, contact the Defense Hotline by calling
 (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
 by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
 The identity of each writer and caller is fully protected.




Acronyms

ACAT                 Acquisition Category
DOT&E                Director, Operational Test and Evaluation
EMD                  Engineering and Manufacturing Development
IOT&E                Initial Operational Test and Evaluation
LRIP                 Low-Rate Initial Production
NEPA                 National Environmental Policy Act
P3I                  Pre-Planned Product Improvement
PESHE                Programmatic Environmental, Safety, and Occupational Health
                        Evaluation
RDT&E                Research, Development, Test, and Evaluation
SFFAS                Statement of Federal Financial Accounting Standards
                       Office of the Inspector General, DoD
Report No. D-2002-012                                                 October 31, 2001
  (Project No. D2001AE-0047)

             Acquisition of the Firefinder (AN/TPQ-47) Radar

                                Executive Summary

Introduction. The Firefinder (AN/TPQ-47) Radar (the Q-47), an Army Acquisition
Category III program, is intended to improve upon and replace the Firefinder
(AN/TPQ-37) Radar (Q-37). The Q-47 will identify incoming projectiles, consisting of
mortars, artillery, rockets, and short-range missiles and will determine the launch and
impact location of the projectile. The Q-47 will provide greater mobility and range
with 50 percent greater target location accuracy than the Q-37. The Army plans to
acquire 72 Q-47 systems at an estimated life-cycle cost of $1.4 billion through FY 2027
(FY 1998 dollars) and plans to hold the full-rate production decision in FY 2006.

Objectives. The primary audit objective was to evaluate the overall management of the
Q-47. Because the program was in the engineering and manufacturing development
acquisition phase, the audit determined whether management was cost-effectively
readying the program for the production phase of the acquisition process. We also
evaluated the management control program as it related to the audit objective.

Results. Overall, the Army was effectively managing the Q-47 engineering and
manufacturing development phase and readying the Q-47 for the production phase of
the acquisition process. However, the following four areas warrant management
attention before the program enters the full-rate production phase of the acquisition
process.

       •   The Firefinder Product Office did not update its acquisition plan to
           incorporate its revised acquisition strategy to acquire the Q-47. Without an
           up-to-date acquisition plan, the Product Office cannot ensure that the efforts
           of personnel collectively responsible for the acquisition of the Q-47 are
           coordinated and integrated to ensure that the Army meets its needs in the
           most effective, economical, and timely manner (finding A).

       •   The Director, Operational Test and Evaluation (DOT&E), did not
           consistently apply its beyond low-rate initial production (LRIP) reporting
           requirements. As a result, DOT&E cannot ensure that its personnel are
           effectively applying beyond LRIP reporting requirements to address whether
           the test and evaluation performed for a program is adequate and whether the
           results of the test and evaluation confirm that the program is effective and
           suitable for combat (finding B).

       •   The Firefinder Product Office did not develop an environmental assessment
           and a programmatic environmental, safety, and occupational health
           evaluation (PESHE) for the Q-47 to identify environmental safety issues,
           occupational health requirements, demilitarization and disposal
           requirements; establish program environmental responsibilities; and compose
           a methodology to track progress throughout the remainder of the program
           life-cycle. Without an environmental assessment and a PESHE, the Product
           Office cannot ensure that the Army is aware of the effect of the program on
           the human environment and the impact of environmental, safety, and
           occupational health issues on mission and cost, and may also be forgoing
           opportunities to further reduce environmental life-cycle costs over the life
           span of the Q-47 (finding C).

       •   The Firefinder Product Office did not include environmental costs for
           pollution prevention, hazardous waste management, demilitarization,
           disposal, and associated cleanup for the Q-47 at the end of its useful life in
           its life-cycle cost estimate. As a result, the Firefinder Product Office
           understated the total life-cycle costs for the Q-47 and would not be able to
           report the liability for pollution prevention, hazardous waste management,
           demilitarization, disposal, and associated cleanup for the Q-47 in the Army
           financial statements when the Army begins fielding the system (finding D).
The management control program that we reviewed for the Q-47 did not ensure that the
Firefinder Product Office periodically reviewed the programmatic environmental,
safety, and occupational health evaluation for the programs under its cognizance for
currency and compliance (Appendix A).

Summary of Recommendations. We recommend that the Product Manager,
Firefinder, update its acquisition plan for Q-47 and that the Army Deputy Chief of Staff
for Operations and Plans validate the Q-47 requirement for 72 systems. Further, we
recommend that DOT&E resolve conflicting DoD beyond LRIP policy to conform with
statutory requirements and update its oversight list to show that it intends to prepare and
submit a beyond LRIP report for the Q-47. In addition, we recommend that the
Product Manager, Firefinder, prepare an environmental assessment and a programmatic
environmental, safety, and occupational health evaluation for the Q-47; include a
review of the programmatic environmental, safety, and occupational health evaluation
in its management control review; develop an environmental cost estimate; and include
the environmental cost estimate in its life-cycle cost estimate.

Management Comments. We received comments from the Deputy for Systems
Management and Horizontal Technology Integration, Office of the Assistant Secretary
of the Army (Acquisition, Logistics, and Technology) (the Deputy); the Principal
Deputy Director, Office of the Director, Operational Test and Evaluation (the Principal
Deputy Director); and the Director, Strategic and Tactical Systems, Office of the Under
Secretary of Defense for Acquisition, Technology, and Logistics (the Director). The
Deputy concurred with the findings and concurred or partially concurred with the
recommendations directed towards the Army. The Principal Deputy Director
concurred with the recommendations to resolve conflicting DoD beyond LRIP policy
and to update the DOT&E oversight list. The Director concurred with the
recommendation to resolve conflicting DoD beyond LRIP policy. Although not
required to comment, the Director also agreed or partially agreed with the remaining
recommendations. A discussion of the management comments is in the Finding section
of the report, and the complete text is in the Management Comments section.

Audit Response. The management comments to the draft report were responsive to the
intent of our recommendations. Comments from the Office of the Assistant Secretary
of Defense (Command, Control, Communications, and Intelligence) were not necessary
to prepare the final report. Therefore, no additional comments are required.




                                            ii
Table of Contents

Executive Summary                                                             i


Introduction
     Background                                                               1
     Objectives                                                               1
     Program Generally Well Managed                                           2

Findings
     A.    Updated Acquisition Plan                                           3
     B.    Beyond Low-Rate Initial Production Report                          9
     C.    Environmental Assessment and Evaluation                           13
     D.    Environmental Life-Cycle Costs                                    18

Appendixes
     A. Audit Process
           Scope and Methodology                                             22
           Management Control Program Review                                 22
           Management Comments on Management Control Program
              Review and Audit Response                                      23
           Prior Coverage                                                    24
     B. Definitions of Technical Terms                                       25
     C. Beyond Low-Rate Initial Production Report and Major Defense
          Acquisition Program Policy                                         28
     D. Life-Cycle Cost Estimating and Reporting Policy                      30
     E. Report Distribution                                                  32
Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics   35
     Director, Operational Test and Evaluation                               39
     Department of the Army                                                  40
Firefinder (AN/TPQ-47) Radar
Background
            The Firefinder (AN/TPQ-47) Radar (the Q-47), an Army Acquisition
            Category III1 program, is intended to improve upon and replace the Firefinder
            (AN/TPQ-37) Radar (Q-37). The Q-47 will identify incoming projectiles,
            consisting of mortars, artillery, rockets, and short-range missiles, by light,
            medium, and heavy caliber classifications and will determine the launch and
            impact location of the projectiles. The Q-47 will provide greater mobility and
            range with 50 percent greater target location accuracy than the Q-37. Nine
            soldiers, three less than the Q-37, will operate the Q-47. The Product Manager,
            Firefinder, is responsible for day-to-day management of the program and is the
            materiel developer for the Q-47, with overall responsibility for development,
            test, production, integration, and deployment of the system. The Director for
            Combat Development, Army Field Artillery School, Fort Sill, Oklahoma, is the
            user representative and Raytheon Company, Electronics Systems, is the prime
            contractor for the Q-47. Appendix B provides definitions of technical terms
            used in this report.

            The Q-47 began as a pre-planned product improvement (P3I) to the Q-37. As a
            P3I, the program proceeded directly to the engineering and manufacturing
            development (EMD) phase of the acquisition process. On November 13, 1997,
            the Program Executive Office, Intelligence, Electronic Warfare, and Sensors,
            approved entry of a P3I of the Q-37 into EMD and transferred oversight
            responsibility to the Deputy for System Acquisition, Army Communications and
            Electronics Command. Subsequently, the Firefinder Product Office changed the
            name of the program to the Q-47 as it became apparent that the Q-37 would be
            replaced with a new program instead of being upgraded. On November 21,
            2000, the Director, Operational Test and Evaluation (DOT&E), notified the
            Army of its intent to add the Q-47 to the next update of the Office of the
            Secretary of Defense Annual Test and Evaluation Oversight List. The Army
            plans to acquire 72 Q-47 systems at an estimated life-cycle cost of $1.4 billion
            through FY 2027 (FY 1998 dollars) and plans to hold a low-rate initial
            production decision in FY 2004 and a full-rate production decision in FY 2006.

Objectives
            The primary audit objective was to evaluate the overall management of the
            Q-47. Because the program was in the EMD acquisition phase, the audit
            determined whether management was cost-effectively readying the program for
            the production phase of the acquisition process. We also evaluated the
            management control program as it related to the audit objective. See
            Appendix A for a discussion of the audit scope and methodology, the review of
            the management control program, and prior coverage related to the audit
            objectives.




1
    As a result of the audit, the Army changed the Acquisition Category of the Q-47 from III to II.

                                                       1
Program Generally Well Managed
    Overall, the Army was effectively managing the EMD phase and readying the
    Q-47 for the production phase of the acquisition process. However, four areas
    warrant management attention before the program enters the full-rate production
    phase of the acquisition process. A discussion of the associated findings
    follows.




                                       2
           A. Updated Acquisition Plan
           The Firefinder Product Office did not update its acquisition plan to
           incorporate its revised acquisition strategy to acquire the Q-47. Since
           the EMD milestone decision, the Product Office revised the acquisition
           strategy as a result of changes in hardware requirements, technology,
           low-rate initial production (LRIP), testing, procurement requirements,
           full-rate production milestone, program cost and schedule, and
           acquisition category. Because the Product Office viewed the acquisition
           plan as an internal document within the Army Communications and
           Electronics Command, it did not intend to update the plan until the LRIP
           phase decision in FY 2004. However, without an up-to-date acquisition
           plan for the Q-47 that reflects the revised acquisition strategy, the
           Product Office cannot ensure that the efforts of personnel collectively
           responsible for the acquisition of the Q-47 are coordinated and integrated
           to ensure that the Army meets its needs in the most effective,
           economical, and timely manner.

Acquisition Strategy, Plan, Category, and Requirements
  Policy
    Acquisition Strategy Policy. DoD Regulation 5000.2-R, “Mandatory
    Procedures for Major Defense Acquisition Programs (MDAPs) and Major
    Automated Information System (MAIS) Acquisition Programs,” June 10, 2001,
    describes the relationship of the essential elements of a program including:
    requirements, program structure, acquisition approach, risk, program
    management, design considerations, and support strategy.

    Acquisition Plan Policy. Army Federal Acquisition Regulation Supplement,
    Part 7, “Acquisition Planning,” July 25, 1997, requires that acquisition plans be
    updated when required for milestone approval or when the acquisition strategy
    changes.

    Acquisition Category Policy. Army Regulation 70-1, “Research,
    Development, and Acquisition, Army Acquisition Policy,” January 15, 1998,
    states that the Army Acquisition Executive has discretionary authority to
    designate a program for intensive centralized management at any point in the
    program’s acquisition life cycle and may redesignate a program to a higher
    acquisition category level if more dedicated oversight is required.

    Acquisition Requirements Policy. Army Regulation 70-1 requires the Deputy
    Chief of Staff for Operations and Plans to validate and integrate the review and
    evaluation of materiel requirements, critical operational issues, and criteria for
    all acquisition category programs.




                                         3
Current and Updated Acquisition Plan
    The Firefinder Product Office revised its original acquisition strategy as a result
    of changes in its acquisition methodology. Because the Product Office viewed
    the acquisition plan as an internal document within the Army Communications
    and Electronics Command, the Product Office did not plan to update it until the
    LRIP decision in FY 2004.

    Original Acquisition Strategy. The Product Manager, Firefinder (the Product
    Manager), included the original acquisition strategy for the Q-47 in Acquisition
    Plan No. 98-09, February 9, 1998, that describes how the Army would acquire
    the system. Because the Q-47 program was originally structured as a P 3I to the
    existing Q-37 radar, the original acquisition strategy developed was for a P3I
    rather than a new program. The acquisition strategy, included in the acquisition
    plan, provided for a competitive EMD contract to design, test, and deliver
    three production-representative systems that the Army would use to conduct
    development and initial operational test and evaluation (IOT&E). The original
    acquisition strategy for production of the Q-47 had the EMD contractor going
    directly into full-rate production in FY 2002, with the Army awarding a basic
    contract with yearly options.

    Change in Acquisition Methodology. Because of schedule increases, which
    the Army directed, and other technical challenges with the contract, the
    Firefinder Product Office rebaselined the Q-47 program in December 1999.
    However, as the contract progressed, the program experienced additional
    schedule and funding delays. In August 2000, the Product Manager and the
    contractor determined that the program needed to be rebaselined once again as a
    result of cost and schedule overruns to the program baseline. Consequently, the
    contractor submitted a new estimate at completion to the Product Office that
    extended the schedule 10 months and created a funding shortfall of $3.6 million
    to complete the EMD phase for the program.

    The Product Manager analyzed the situation and determined that he needed to
    revise the acquisition strategy to reduce program risk and to ensure that the
    program was executable. As a result, the Product Manager revised the
    acquisition strategy to incorporate changes in hardware requirements,
    technology, testing, LRIP, procurement requirements, full-rate production
    milestone, program cost and schedule, and acquisition category. However, the
    Product Office did not update its acquisition plan, to document the revised
    acquisition strategy to acquire the Q-47.

           Hardware Requirements. The Firefinder Product Office revised the
    hardware requirement from three production-representative systems to
    two EMD prototypes in the EMD phase of the acquisition process. This
    revision allowed the contractor to concentrate its efforts on achieving the
    technical performance required for the Q-47. As a result of using EMD
    prototypes instead of production-representative systems, the contractor was
    allowed to implement hardware and software fixes to any problems identified
    during EMD testing.



                                         4
       Technology. During EMD, the contractor will be allowed to
incorporate enhanced technology for a lower-cost antenna module into the
second prototype system. The enhanced technology is a re-design of the
antenna module that is extremely labor intensive and poses significant
producibility issues. Each Q-47 system has 408 antenna modules that account
for 27 percent of the manufacturing hardware costs. The re-designed antenna
module has promise to result in significant cost savings in the production and
operations and support phases of the acquisition process.

         Low-Rate Initial Production. The revised acquisition strategy added
the LRIP of nine Q-47 systems, three systems in FY 2004 and six systems in
FY 2005, to the production contract and stated that IOT&E will be performed
using the FY 2004 LRIP systems. The contractor is expected to take 2 years to
build each Q-47 system. Consequently, the Army will not perform IOT&E until
FY 2006. The DOT&E; the Deputy Chief of Staff for Programs; and the
Deputy for System Acquisition, the milestone decision authority, gave verbal
approval for the 2-year LRIP buy to avoid an FY 2005 production break. The
initial acquisition strategy did not include plans for an LRIP decision and buy.

        Testing. Initially, the Q-47 acquisition strategy stated that the contractor
would produce three production-representative systems for use in the dedicated
IOT&E before the full-rate production decision planned for FY 2002. With the
restructure of the acquisition strategy, the EMD contract was modified to
acquire two EMD prototypes, instead of the three production-representative
systems, that would be used in an added limited user test. The limited user test
will address a limited number of operational issues, and is planned for FY 2004,
before the LRIP decision. The dedicated IOT&E is planned for FY 2006 using
the three FY 2004 LRIP systems.

        Procurement Requirements. Because the new acquisition strategy
changes the hardware requirement from three production-representative systems
to two EMD prototypes, the Q-47 program will have to increase funding for an
additional Q-47 system during the production phase to meet its requirement for
72 systems. However, the Deputy Chief of Staff for Operations and Plans has
not validated the Army’s need for 72 Q-47 systems, which is based on a
one-for-one replacement of the Q-37, the predecessor system to the Q-47.
Army Regulation 70-1 requires the Deputy Chief of Staff for Operations and
Plans to validate and integrate the review and evaluation of materiel
requirements, critical operational issues, and criteria for all acquisition category
programs. The Deputy Chief of Staff for Programs did not provide
documentation showing validation of the Army requirement for 72 Q-47
systems.

        Full-Rate Production Milestone. The full-rate production decision
milestone date for the Q-47 slipped several times because of Army directed
schedule increases and contractor cost and schedule overruns to the program
baseline. In the original acquisition strategy, the full-rate production milestone
decision date was December 2001. However, in the revised acquisition
strategy, the full-rate production decision date was slipped to FY 2006, after
successful completion of the IOT&E.



                                     5
                Program Cost and Schedule. In July 1998, the contractor began work
        on the EMD contract scheduled to last 43 months and valued at $73.7 million
        that included a contractor investment of $16.4 million. In May 1999, the Army
        extended research, development, test, and evaluation (RDT&E) funding for the
        Q-47 by one year, but delayed the full-rate production decision from FY 2002 to
        FY 2003. In December 1999, the Firefinder Program Office rebaselined the
        EMD contract to a 53-month, $96.5 million program, again including the
        $16.4 million contractor investment, because the contractor was overrunning
        schedule and costs. In May 2000, the Army again extended the RDT&E
        funding an additional year and delayed full-rate production from FY 2003 to
        FY 2004. In August 2000, the Product Manager, Firefinder, and the contractor
        determined that the program needed to be rebaselined once again because of cost
        and schedule overruns to the program baseline. As a result, in February 2001,
        the Product Office rebaselined the EMD contract to an 83-month,
        $131.8 million program, including a contractor investment of $16.4 million and
        additional work, valued at $9.5 million.

                Acquisition Category. In an April 9, 2001, memorandum that was
        issued as a result of the audit, the Deputy for Systems Acquisition, the milestone
        decision authority for the Q-47, requested that the Assistant Secretary of the
        Army (Acquisition, Logistics, and Technology) reclassify the Q-47 as an
        Acquisition Category (ACAT) II program because of increases in RDT&E and
        procurement funding. At the EMD milestone decision in November 1997, the
        Q-47 did not meet the threshold requirements for an ACAT II program and was
        classified as an ACAT III program by the Assistant Secretary of the Army
        (Research, Development, and Acquisition).2 However, the FY 2002 through
        FY 2003 President’s Budget for the Q-47 shows RDT&E and procurement
        expenditures of $165 million and of $767 million, respectively, which exceed
        the thresholds for an ACAT II program as defined in DoD Instruction 5000.2,
        “Operation of the Defense Acquisition System,” Change 1, January 4, 2001.
        DoD Instruction 5000.2 defines an ACAT II program as a program that does not
        meet the criteria for an ACAT I program, but is a major system if it is estimated
        by the DoD Component Head to require an eventual total expenditure for
        RDT&E of more than $140 million or for procurement of more than
        $660 million in FY 2000 constant dollars. On May 16, 2001, the Army
        Acquisition Executive approved the reclassification of the Q-47 as an ACAT II
        program.

        Revised Acquisition Strategy Approval. On July 27, 2000, the Product
        Manager briefed the Deputy for Systems Acquisition on the revised acquisition
        strategy and received his approval to revise the acquisition strategy and
        rebaseline the program pending concurrence by the DOT&E, the Deputy Chief
        of Staff for Programs, the Army Test and Evaluation Center, and the Director
        for Combat Development. On April 9, 2001, the Deputy for Systems
        Acquisition formally approved the new acquisition strategy. However, the
        Firefinder Product Office did not plan to update the acquisition plan for the
        Q-47 to incorporate the revised acquisition strategy until the FY 2004 LRIP
        decision even though the acquisition plan states that it would be updated when

2
 Renamed the Assistant Secretary of the Army (Acquisition, Logistics, and Technology) on February 16,
1999.

                                                  6
     required for milestone approval or when the acquisition strategy changes. In
     addition, the Army Federal Acquisition Regulation Supplement, Part 7, also
     requires that acquisition plans be updated when required for milestone approval
     or when the acquisition strategy changes.

Updated Acquisition Plan Benefits
     Without an up-to-date acquisition plan for the Q-47, the Firefinder Product
     Office cannot ensure that the efforts of personnel collectively responsible for the
     acquisition of the Q-47 are coordinated and integrated to ensure that the Army
     meets its needs in the most effective, economical, and timely manner.
     Acquisition personnel who need up-to-date information on the Q-47 to
     effectively manage the program include the user representative, the test
     community, the depot maintenance provider, the milestone decision authority,
     and the product manager and his staff. With a comprehensive documented
     strategy within the plan, a roadmap for the program will exist to minimize the
     time and cost of satisfying the identified, validated need; to document the
     responsibilities for all those involved; and to guide program execution.

Recommendations and Management Comments
     A.1. We recommend that the Product Manager, Firefinder, update the
     acquisition plan for the Firefinder (AN/TPQ-47) Radar to include the latest
     acquisition strategy and periodically update the plan as significant changes
     occur to the acquisition strategy.

     Army Comments. The Deputy for Systems Management and Horizontal
     Technology Integration, Office of the Assistant Secretary of the Army
     (Acquisition, Logistics, and Technology), concurred, stating that the Product
     Manager, Firefinder, plans to update the acquisition plan for the Q-47 to support
     the milestone review and the follow-on contract for the LRIP phase in FY 2004.
     The Deputy also stated that the Product Manager will update the acquisition plan
     to include the revised acquisition strategy by the second quarter, FY 2002. In
     addition, the Deputy restated the comments in the report about the original
     acquisition plan, the engineering and manufacturing development, and revisions
     to the program strategy. For the complete text of the Deputy’s comments, see
     the Management Comments section of this report.

     Under Secretary of Defense for Acquisition, Technology, and Logistics,
     Comments. Although not required to comment, the Director, Strategic and
     Tactical Systems, agreed, restating the comments made by the Deputy for
     Systems Management and Horizontal Technology Integration. For the complete
     text of the Director’s comments, see the Management Comments section of this
     report.




                                          7
A.2. We recommend that the Army Deputy Chief of Staff for Operations
and Plans validate the Firefinder (AN/TPQ-47) Radar requirement for
72 systems.

Army Comments. The Deputy for Systems Management and Horizontal
Technology Integration concurred, stating that the Army Deputy Chief of Staff
for Operations and Plans has validated the requirement for procurement of
72 Q-47 systems based on a one-for-one replacement of the Q-37, the
predecessor system. Further, the Deputy stated that the Army will deploy the
72 systems with newly configured divisions or will preposition the systems.
The Deputy also stated that the Army Acquisition Objective for the Q-47 is
72 systems in the Program Objectives Memorandum for FYs 2002 through
2007.
Under Secretary of Defense for Acquisition, Technology, and Logistics,
Comments. Although not required to comment, the Director, Strategic and
Tactical Systems, agreed, restating the comments made by the Deputy for
Systems Management and Horizontal Technology Integration.




                                   8
           B. Beyond Low-Rate Initial Production
              Report
           The DOT&E did not consistently apply its beyond LRIP reporting
           requirements. This condition occurred because the DOT&E oversight
           list indicated that DOT&E did not intend to prepare a beyond LRIP
           report for the Q-47 even though it intended to prepare such a report.
           Additionally, the DoD directive, instruction, and regulation containing
           the beyond LRIP report requirement provide conflicting guidance. As a
           result, DOT&E cannot ensure that its personnel are effectively applying
           beyond LRIP reporting requirements to address whether the test and
           evaluation performed for a program is adequate and whether the results
           of the test and evaluation confirm that the program is effective and
           suitable for combat.

Beyond Low-Rate Initial Production Report and Major
  Defense Acquisition Program Policy
    The following provides an overview of statutory and DoD policy concerning
    beyond LRIP reporting before full-rate production decisions and major Defense
    acquisition programs. Appendix C provides a detailed discussion of the policy.

    Beyond Low-Rate Initial Production Policy. Statutory and DoD policy
    provide requirements and guidance concerning beyond LRIP reporting.

             Statutory Policy. Section 2399, title 10, United States Code,
    “Operational Test and Evaluation of Defense Acquisition Programs,” requires
    that, at the conclusion of operational test and evaluation conducted for each
    major Defense acquisition program, DOT&E will prepare and submit a report to
    the Secretary of Defense; the Under Secretary of Defense for Acquisition,
    Technology, and Logistics; and the congressional Defense committees. The
    report will address whether the test and evaluation performed is adequate and
    whether the results of the test and evaluation confirm that the program is
    effective and suitable for combat.

            DoD Policy. The policy in the DoD Directive 5141.2, “Director of
    Operational Test and Evaluation (DOT&E),” May 25, 2000, and DoD
    Instruction 5000.2 states that DOT&E will analyze the results of operational test
    and evaluation conducted on programs under DOT&E test and evaluation
    oversight and submit a beyond LRIP report that addresses the adequacy of the
    test and evaluation performed. However, policy in the DoD Regulation
    5000.2-R only requires the analysis and report for major Defense acquisition
    programs.

    Major Defense Acquisition Program Policy. Statutory and DoD policy
    provide requirements and guidance on major Defense acquisition programs and
    state that a major Defense acquisition program is an acquisition program that
    DoD has determined is not a highly sensitive classified program and has


                                        9
    designated as a major defense acquisition program or has estimated will require
    an eventual total expenditure for RDT&E and procurement funding that exceeds
    specified amounts.

Preparing a Beyond Low-Rate Initial Production Report
    The DOT&E did not consistently apply beyond LRIP reporting requirements to
    its oversight list and to DoD policy containing the beyond LRIP report
    preparation requirement.

    DOT&E Oversight List. The DOT&E Test and Evaluation Master Oversight
    List, May 2001, contains the Q-47 and states that no beyond LRIP report is
    required because the program is not a major Defense acquisition program as
    defined by section 139, title 10, United States Code, “Director of Operational
    Test and Evaluation.” However, DOT&E personnel stated that they intend to
    prepare a beyond LRIP report for the Q-47 at the conclusion of operational test
    and evaluation and submit the report to the Secretary of Defense; the Under
    Secretary of Defense for Acquisition, Technology, and Logistics; and the
    congressional Defense committees. DOT&E personnel indicated that they plan
    to update the oversight list to be consistent with their beyond LRIP reporting
    intentions.

    DoD Policy. The DoD policy documents were not consistent in applying the
    beyond LRIP report requirement. DoD Directive 5141.2 and DoD
    Instruction 5000.2 state that the DOT&E should prepare beyond LRIP reports
    for programs under its oversight. However, DoD Regulation 5000.2-R states
    that DOT&E will prepare beyond LRIP reports for each major Defense
    acquisition program, which is not consistent with DoD Directive 5141.2 and
    DoD Instruction 5000.2. Consequently, the Directive, Instruction, and
    Regulation provide conflicting guidance concerning beyond LRIP reporting.
    Furthermore, DoD Directive 5141.2 takes precedence over DoD
    Instruction 5000.2 and DoD Regulation 5000.2-R.

    Beyond LRIP Report Preparation. DOT&E personnel stated that the statutory
    law is clear that all major Defense acquisition programs require a beyond LRIP
    report. However, for less than major defense acquisition programs, the office
    of the DOT&E stated that it determines whether a beyond LRIP report will be
    prepared on a case by case basis. Further, DOT&E personnel stated that
    preparing a beyond LRIP report is very resource intensive and that DOT&E did
    not have the time and money to prepare a beyond LRIP report for every
    program under its oversight. For every program that a beyond LRIP report is
    not prepared, DOT&E addresses the activity of test and evaluation and an
    assessment of the test and evaluation in its annual report. Further, if DOT&E is
    required to prepare a beyond LRIP for every program under its oversight,
    DOT&E would be forced to reduce the number of programs on its oversight list
    because of resource constraints.




                                       10
Program Operational Effectiveness and Suitability
     Without consistently applying beyond LRIP reporting requirements to its
     oversight list and to DoD policy, DOT&E cannot ensure that its personnel are
     effectively applying beyond LRIP reporting requirements to address whether the
     test and evaluation performed for a program is adequate and whether the results
     of the test and evaluation confirm that the program is effective and suitable for
     combat.

Recommendations and Management Comments
     B.1. We recommend that the Director, Operational Test and Evaluation, in
     coordination with the Under Secretary of Defense for Acquisition,
     Technology, and Logistics, and the Assistant Secretary of Defense
     (Command, Control, Communications, and Intelligence) initiate action to
     resolve conflicting policy on beyond low-rate initial production reporting
     contained in DoD Directive 5141.2, “Director of Operational Test and
     Evaluation (DOT&E),” May 25, 2000; and DoD Instruction 5000.2,
     “Operation of the Defense Acquisition System,” Change 1, January 4, 2001;
     DoD Regulation 5000.2-R, “Mandatory Procedures for Major Defense
     Acquisition Programs (MDAPs) and Major Automated Information System
     (MAIS) Acquisition Programs,” June 10, 2001, to conform with
     section 2399, title 10, United States Code, “Operational Test and Evaluation
     of Defense Acquisition Programs.”

     Director, Operational Test and Evaluation, Comments. The Principal
     Deputy Director, Office of the Director, Operational Test and Evaluation,
     concurred, stating that DOT&E will take action to resolve conflicting policy
     regarding beyond LRIP reporting requirements. For the complete text of the
     Principal Deputy Director’s comments, see the Management Comments section
     of this report.

     Under Secretary of Defense for Acquisition, Technology, and Logistics,
     Comments. The Director, Strategic and Tactical Systems, Office of the Under
     Secretary of Defense for Acquisition, Technology, and Logistics, concurred,
     stating that an integrated product team will be convened during the first quarter,
     FY 2002, to deliberate the conflicting policy on the beyond LRIP reporting.
     For the complete text of the Director’s comments, see the Management
     Comments section of this report.

     B.2. We recommend that, the Director, Operational Test and Evaluation,
     update its oversight list to show that it intends to prepare and submit a
     beyond low-rate initial production report for the Firefinder (AN/TPQ-47)
     Radar.

     Director, Operational Test and Evaluation, Comments. The Principal
     Deputy Director concurred, stating that DOT&E will prepare a beyond LRIP
     report on the Q-47 and update its oversight list to show that it intends to prepare
     the report.

                                         11
Under Secretary of Defense for Acquisition, Technology, and Logistics,
Comments. Although not required to comment, the Director, Strategic and
Tactical Systems, agreed, stating that, without a beyond LRIP report for the
Q-47, the Secretary of Defense; the Under Secretary of Defense for Acquisition,
Technology, and Logistics; and the congressional Defense committees will not
be informed as to whether:

       •   the test and evaluation was adequate and

       •   the results confirm that the items or components tested for the Q-47
           are operationally effective and suitable for use in combat before the
           production decision is made.




                                   12
                C. Environmental Assessment
                   and Evaluation
                The Firefinder Product Office did not develop an environmental
                assessment and a programmatic environmental, safety, and occupational
                health evaluation (PESHE) for the Q-47 to identify environmental safety
                issues, occupational health requirements, demilitarization and disposal
                requirements; establish program environmental responsibilities; and
                compose a methodology to track progress throughout the remainder of
                the program life-cycle. The Product Office did not complete an
                environmental assessment and a PESHE because:

                         • the Product Office believed that the environmental assessment
                           for the Q-37 was sufficient because the Q-47 was originally a
                           P3I for the Q-37; and
                         • the management control reviews by the Product Office did not
                           include a review for PESHE requirements.

                Without an environmental assessment and a PESHE, the Product Office
                cannot ensure that the Army is aware of the effect of the program on the
                human environment and the impact of environmental, safety, and
                occupational health issues on mission and cost and may also be forgoing
                opportunities to further reduce environmental life-cycle costs over the
                life span of the Q-47.

Environmental, Safety, and Occupational Health and
  Management Control Policy
        DoD Environmental Policy. DoD Regulation 5000.2-R3 provides guidance on
        environmental, safety, and occupational health evaluations and environmental
        analyses and the National Environmental Policy Act (NEPA).

                Environmental, Safety, and Occupational Health Evaluation. DoD
        Regulation 5000.2-R requires that all programs, regardless of acquisition
        category, conduct environmental, safety, and occupational health analyses to
        integrate environmental, safety, and occupational health issues into the system
        engineering process. The analyses must support the development of a PESHE
        that the program office includes in the acquisition strategy. The program




3
 DoD initially issued DoD Regulation 5000.2-R on March 15, 1996. It included the environmental,
safety, and occupational health evaluation policy.

                                                13
    manager must initiate the PESHE at the earliest possible time, usually in support
    of a program initiation decision, and must update the evaluation throughout the
    life cycle of the program. Acquisition managers use the PESHE to:

                   •   describe the program manager’s strategy for meeting
                       environmental, safety, and occupational health requirements;

                   •   establish program responsibilities; and

                   •   identify how a program manager will track progress.

           National Environmental Policy Act. DoD Regulation 5000.2-R
    requires the program manager to complete any analysis required by NEPA
    before a decision to proceed with a proposed action that may effect the human
    environment. Further, DoD Regulation 5000.2-R requires the program
    manager to include an appropriate completion schedule for the NEPA
    compliance in the acquisition strategy. NEPA documents include a categorical
    exclusion, an environmental assessment, and an environmental impact
    statement.

    Management Control Evaluations for Less-Than-Major Defense Acquisition
    Programs Policy. Army Regulation 11-2, “Army Programs, Management
    Control,” August 1, 1994, and Army Regulation 70-1 provide Army policy
    concerning management controls for less-than-major Defense acquisition
    programs.

           Army Regulation 11-2. Army Regulation 11-2 requires the program
    executive office to prepare a written plan for conducting required management
    control evaluations for acquisition programs under its cognizance, to keep the
    plan current, and to use the plan to monitor progress to ensure that management
    control evaluations are conducted as scheduled.

            Army Regulation 70-1. Army Regulation 70-1 identifies the key
    management controls for the management control evaluation of less-than-major
    Defense acquisitions as the milestone decision documentation requirements
    specified in DoD Regulation 5000.2-R. Further, the Regulation requires the
    program executive officer to evaluate those key management controls using the
    milestone decision review process.

Environmental Assessment and Environmental, Safety, and
  Occupational Health Evaluation
    Environmental Assessment and PESHE. The Firefinder Product Office did
    not develop an environmental assessment and a PESHE for the Q-47. On
    November 13, 1997, the Program Executive Office, Intelligence, Electronic
    Warfare, and Sensors, approved entry of a P3I of the Q-37 into the EMD phase
    of the acquisition process and transferred oversight responsibility to the Deputy
    for System Acquisition, Army Communications and Electronics Command.
    Consequently, the Firefinder Product Office believed that the P3I of the Q-37
    would not require a new environmental assessment because it believed that the

                                        14
    environmental assessment, which it had prepared for the Q-37, was sufficient.
    Further, the Product Office did not prepare a PESHE for the P3I of the Q-37
    because it was unaware of the requirement. Subsequently, the Firefinder
    Product Office changed the name of the program to the Q-47, as it became
    apparent that the Q-37 was not being upgraded but being replaced with a new
    program. Even after the status of the program changed to become the Q-47, the
    Product Office did not conduct and complete a new environmental assessment,
    including a PESHE. In February 2001, the Product Office indicated that it
    planned to complete the environmental assessment and the PESHE before the
    full-rate production decision for the Q-47.

    Management Control Review. The management control review that the
    Firefinder Product Office conducted in FY 2000 for the Q-47 did not ensure that
    a PESHE was prepared, completed, and kept up-to-date. To evaluate
    management controls for less-than-major Defense acquisition programs, the
    Product Office conducts management control assessments for programs under its
    cognizance and provides the results of those assessments to the Deputy for
    System Acquisition for inclusion in the annual statement of assurance for the
    Army Communications and Electronics Command. Although the management
    control review for the Q-47 covered some aspects of the acquisition process, the
    review did not adequately cover the documentation required in DoD Regulation
    5000.2-R for a PESHE. Consequently, the Q-47 was allowed to proceed
    without a PESHE.

Environmental Assessment and Environmental, Safety, and
  Occupational Health Evaluation Benefits
    Without an environmental assessment for the Q-47, the Firefinder Product
    Office cannot ensure that the Army is aware of the effect of the program on the
    human environment, including the nature and physical environment and the
    relationship of people with that environment. When the Product Manager
    performs the analyses for the PESHE for the Q-47, he will gain timely
    information on the potential environmental, safety, and occupational health
    effects of developing, fielding, storing, demilitarizing, and disposing of their
    weapon systems. The information is critical because any unforeseen
    environmental, safety, or occupational health effects that violate local, state, or
    Federal law could cause lengthy program delays and affect mission and program
    cost. Moreover, negative effects may lessen opportunities to further reduce
    maintenance-process environmental life-cycle costs over the life span of the
    Q-47, including upgrades to the programs, as appropriate. Therefore, the
    Product Manager should analyze and document all possible programmatic
    actions and update the evaluation throughout the program’s life cycle.




                                        15
Recommendations, Management Comments, and Audit
  Response
    C. We recommend that the Product Manager, Firefinder:

          1. Prepare an environmental assessment for the Firefinder
    (AN/TPQ-47) Radar to determine whether the system has a significant
    impact on the quality of the human environment, in accordance with DoD
    Regulation 5000.2-R, “Mandatory Procedures for Major Defense
    Acquisition Programs (MDAPs) and Major Automated Information System
    (MAIS) Acquisition Programs,” June 10, 2001.

    Army Comments. The Deputy for Systems Management and Horizontal
    Technology Integration, Office of the Assistant Secretary of the Army
    (Acquisition, Logistics, and Technology), concurred, stating that the Army
    Communications and Electronics Command will conduct a PESHE for the Q-47
    by the third quarter, FY 2002. For the complete text of the Deputy’s
    comments, see the Management Comments section of this report.

    Under Secretary of Defense for Acquisition, Technology, and Logistics,
    Comments. Although not required to comment, the Director, Strategic and
    Tactical Systems, Office of the Under Secretary of Defense for Acquisition,
    Technology, and Logistics, agreed, stating that, the approved acquisition plan
    for the Q-47 states that:
           The Safety Assessment Report (SAR) will be procured as a
           contractor-prepared data item. An evaluation of the system’s potential
           impact on the quality of human environment will be conducted and the
           appropriate environmental documentation will be prepared.

    Further, the Director stated that the engineering and manufacturing development
    contract for the Q-47 includes a contract data item for a safety assessment report
    for which the initial version was prepared and submitted in January 2000. The
    Director also stated that the initial safety assessment report, which included a
    hazard analysis report and an environmental assessment as separate appendixes,
    was evaluated as part of the critical decision review. Additionally, the Director
    stated that the next safety assessment report submission will be due 60 days
    before development testing and the final safety assessment report will be
    prepared 30 days after receipt of Government comments. For the complete text
    of the Director’s comments, see the Management Comments section of this
    report.

            2. Prepare and update annually, as appropriate, a programmatic
    environmental, safety, and occupational health evaluation for the Firefinder
    (AN/TPQ-47) Radar to identify environmental safety issues, occupational
    health requirements, demilitarization and disposal requirements; to
    establish program environmental responsibilities; and to compose a
    methodology to track progress throughout the remainder of the program
    life-cycle, in accordance with DoD Regulation 5000.2-R, “Mandatory



                                            16
Procedures for Major Defense Acquisition Programs (MDAPs) and Major
Automated Information System (MAIS) Acquisition Programs,” June 10,
2001.

Army Comments. The Deputy for Systems Management and Horizontal
Technology Integration concurred, stating that a safety assessment report, which
included a hazard analysis report and an environmental assessment, was
prepared on the proposed Q-47 components. Further, the Deputy stated that the
Directorate for Safety, Army Communications and Electronics Command, has
initiated actions on a health hazard assessment and a non-ionizing radiation
protection study. The Deputy also stated that a PESHE was not a requirement
at the time of the EMD milestone review in November 1997; however, the
requirement for a PESHE is in the latest version of DoD Regulation 5000.2-R,
June 10, 2001. In conclusion, the Deputy stated that Directorate for Safety will
initiate action to complete a PESHE and ensure its review and annual update.

Under Secretary of Defense for Acquisition, Technology, and Logistics,
Comments. Although not required to comment, the Director, Strategic and
Tactical Systems, agreed, restating the comments made by the Deputy for
Systems Management and Horizontal Technology Integration.

Audit Response. The Deputy’s comments were responsive; however, the
March 15, 1996, version of DoD Regulation 5000.2-R required a PESHE as
follows.
       The acquisition strategy shall include a programmatic environmental,
       safety, and health (ESH) evaluation. The PM shall initiate the ESH
       evaluation at the earliest possible time in support of a program
       initiation decision (usually Milestone I) and shall maintain an updated
       evaluation throughout the life-cycle of the program. The ESH
       evaluation describes the PM's strategy for meeting ESH requirements
       (see 4.3.7), establishes responsibilities, and identifies how progress
       will be tracked.

      3. Conduct a review of the programmatic environmental, safety,
and occupational health evaluation for the Firefinder (AN/TPQ-47) Radar
during the management control review for the annual statement of
assurance to ensure that the evaluation is up-to-date.

Army Comments. The Deputy for Systems Management and Horizontal
Technology Integration concurred, stating that the Directorate for Safety, Army
Communications and Electronics Command, will initiate action to complete a
PESHE and ensure its review and annual update.

Under Secretary of Defense for Acquisition, Technology, and Logistics,
Comments. Although not required to comment, the Director, Strategic and
Tactical Systems, agreed, restating the comments made by the Deputy for
Systems Management and Horizontal Technology Integration.




                                         17
            D. Environmental Life-Cycle Costs
            The Firefinder Product Office did not include environmental costs for
            pollution prevention, hazardous waste management, demilitarization,
            disposal, and associated cleanup for the Q-47 at the end of its useful life
            in its life-cycle cost estimate. The condition occurred because the
            Product Office believed that:

                    •   those environmental costs were not significant enough to
                        estimate because disposal revenue would offset disposal costs;
                        and

                    •   historically, this type of radar is fielded longer than its
                        planned life-cycle, which is through FY 2027.

            As a result, the Firefinder Product Office understated the total life-cycle
            costs for the Q-47 and would not be able to report the liability for
            pollution prevention, hazardous waste management, demilitarization,
            disposal, and associated cleanup for the Q-47 in Army financial
            statements when the Army begins fielding the system.

Life-Cycle Estimating and Reporting Policy
     The following provides an overview of DoD, Army, and Federal Financial
     Accounting Standards policy concerning life-cycle estimating and reporting for
     environmental and disposal liabilities. Appendix D provides a detailed
     discussion of the policy.

     DoD Policy. The policy requires that life-cycle cost estimates be
     comprehensive and identify all costs for the development, production, and
     operation of a system regardless of the source of funding and that the liability
     not be based on the availability of funds.

     Army Policy. The policy states that all life-cycle cost estimates must address
     environment costs, including activities related to pollution prevention,
     compliance, remediation, restoration, conservation, litigation, liability, added
     management or overhead costs, and demilitarization and disposal of the system.

     Federal Financial Accounting Standards Policy. The policy requires Federal
     agencies to recognize a liability in agency financial statements for cleanup costs
     associated with Federal mission property, plant, and equipment, including
     weapon systems, when the agency places the property, plant, and equipment
     into service.




                                          18
Demilitarization and Disposal Costs
     On September 30, 1997, before the EMD decision, the Firefinder Product
     Office prepared a life-cycle cost estimate for the P3I of the Q-37, which
     subsequently became the Q-47. However, the life-cycle cost estimate did not
     include environmental costs for pollution prevention, hazardous waste
     management, demilitarization, disposal, and associated cleanup for the Q-47 at
     the end of its useful life because the Product Office believed that:

            •   those costs would be offset by disposal revenue from the sale of the
                system and

            •   the system would be fielded longer than its planned useful life.

     Disposal Revenue. The Firefinder Product Office believed that environmental
     costs for demilitarization, disposal, and associated cleanup for the Q-47 would
     be offset by disposal revenue and, therefore, would not be significant enough to
     estimate and include in the life-cycle cost estimate. However, the Product
     Office had not documented its cost analysis to support that conclusion. Army
     Pamphlet 70-3, “Army Acquisition Procedures,” July 15, 1999, requires the
     life-cycle cost estimate for a program to include the total environmental, safety,
     and health costs. The “Department of Army Cost Analysis Manual,” May
     2001, states that those costs consist of costs related to pollution prevention,
     compliance, remediation, restoration, conservation, litigation, liability, added
     management or overhead costs, and demilitarization and disposal of the system.

     Planned Useful Life. The Firefinder Product Office estimated the useful life of
     the Q-47 to end in FY 2027. However, the Product Office believed that it could
     not determine the Q-47 environmental costs because systems similar to the Q-47
     have lasted longer than their planned useful life. Therefore, the Product Office
     neither established a demilitarization and disposal schedule for the Q-47 nor
     determined the environmental costs for pollution prevention, hazardous waste
     management, demilitarization, disposal, and associated cleanup for the Q-47 at
     the end of its useful life. However, the Statement of Federal Financial
     Accounting Standards (SFFAS) No. 6, “Accounting for Property, Plant, and
     Equipment,” November 10, 1995, requires Federal agencies, beginning in
     FY 1998, to recognize a liability in agency financial statements for cleanup costs
     associated with Federal mission property, plant, and equipment, including
     weapon systems, when the agency places the property, plant, and equipment
     into service.

Environmental and Disposal Liability Reporting
     The General Accounting Office Testimony No. T-AIMD/NSIAD-00-163
     “Department of Defense: Progress in Financial Management Reform,” May 9,
     2000, states that DoD has taken important steps to implement the Federal




                                         19
    accounting standards requiring recognition and reporting of liabilities in the area
    of environmental cleanup and disposal; however, DoD still faces significant
    challenges in that area. Specifically, DoD did not:

           •   consider all potential liabilities,

           •   refine estimates to ensure that assumptions and methodologies are
               consistently applied, and

           •   adequately support reported estimates.

    The Testimony also stated that DoD had focused on those liabilities expected to
    involve the largest amounts, such as nuclear weapon systems and training
    ranges. However, going forward, DoD needs to address estimates for other
    weapon systems and conventional munitions.

Completeness of Life-Cycle Cost Estimate
    By not including the environmental costs for pollution prevention, hazardous
    waste management, demilitarization, disposal, and associated cleanup for the
    Q-47 at the end of its useful life in the program’s life-cycle cost estimate, the
    Firefinder Product Office understated the total life-cycle costs for the Q-47.
    Although those costs may not be highly significant in terms of percentage of
    system life-cycle cost, those costs should not be ignored. Without an accurate
    life-cycle cost, which includes environmental costs, the Product Office would
    not be able to accurately report the liability for Q-47 environmental cleanup and
    disposal costs in future Army financial statements. The Army should begin
    reporting the environmental cleanup and disposal liability when it begins fielding
    the Q-47 in FY 2006, in accordance with SFFAS No. 6. Cumulatively, the
    environmental cleanup and disposal costs for Army weapon systems are likely to
    represent a material value on future Army and DoD-wide consolidated financial
    statements.

Recommendations, Management Comments, and Audit
  Response
    D. We recommend that the Product Manager, Firefinder:

          1. Develop an environmental cost estimate for pollution prevention,
    hazardous waste management, demilitarization, disposal, and associated
    cleanup of the Firefinder (AN/TPQ-47) Radar Program.

    Army Comments. The Deputy for Systems Management and Horizontal
    Technology Integration, Office of the Assistant Secretary of the Army
    (Acquisition, Logistics, and Technology), partially concurred, stating that the
    Q-47 will not contain radioactive materials and did not contain explosives and
    munitions. Further, the Deputy stated that the Product Manager, Firefinder,
    believes that the environmental cleanup costs are negligible with a mobile
    system and, therefore, did not document those costs in the original program

                                          20
office estimate. The Deputy also stated that the Product Manager will develop
an estimate for disposal of the Q-47 program by the first quarter, FY 2002. For
the complete text of the Deputy’s comments, see the Management Comments
section of this report.

Under Secretary of Defense for Acquisition, Technology, and Logistics,
Comments. Although not required to comment, the Director, Strategic and
Tactical Systems, partially agreed, restating the comments made by the Deputy
for Systems Management and Horizontal Technology Integration. In addition to
restating the Deputy’s comments, the Director stated that the original program
office estimate for the Q-47 did not include the disposal cost of the system
because the Army has never disposed of any Firefinder radar systems. For the
complete text of the Director’s comments, see the Management Comments
section of this report.
Audit Response. The Deputy’s comments were responsive to the intent of the
recommendation.

       2. Include the environmental cost estimate for pollution prevention,
hazardous waste management, demilitarization, disposal, and associated
cleanup of the Firefinder (AN/TPQ-47) Radar Program in its life-cycle cost
estimate.

Army Comments. The Deputy for Systems Management and Horizontal
Technology Integration, Office of the Assistant Secretary of the Army
(Acquisition, Logistics, and Technology), partially concurred, stating that the
cost estimate for disposal of the Q-47 systems will be incorporated into the
life-cycle cost estimate for the Q-47 by the first quarter, FY 2002.

Under Secretary of Defense for Acquisition, Technology, and Logistics,
Comments. Although not required to comment, the Director, Strategic and
Tactical Systems, partially agreed, restating the comments made by the Deputy
for Systems Management and Horizontal Technology Integration.

Audit Response. The Deputy’s comments were responsive to the intent of the
recommendation.




                                    21
Appendix A. Audit Process

Scope and Methodology
    We reviewed documentation dated from August 1993 to June 2001. We
    interviewed and obtained documentation from the staffs of the Army Training
    and Doctrine Command; the Assistant Secretary of the Army (Acquisition,
    Logistics, and Technology); the Army Deputy Chief of Staff for Operations and
    Plans; the Army Communications and Electronics Command; Deputy for
    System Acquisition, System Management Center; and the Firefinder Product
    Office. Because the Q-47 Program was in the late phase of EMD, the audit
    concentrated on whether management was cost-effectively readying the system
    for the production phase of the acquisition process. Consequently, we focused
    our review on the areas of requirements generation, acquisition planning,
    program assessments and decision reviews, and test and evaluation.

    Audit Type, Dates, and Standards. We performed this program audit from
    January through July 2001 in accordance with generally accepted Government
    auditing standards except that we were unable to obtain an opinion on our
    system of quality control. The most recent external quality control review was
    withdrawn on March 15, 2001, and we will undergo a new review.

    Use of Computer-Processed Data. We did not rely on computer-processed
    data to perform this audit.

    Use of Technical Assistance. An electronics engineer from the Technical
    Assessment Division, Office of the Assistant Inspector General for Auditing,
    DoD, assisted the auditors in determining whether the contractor was effectively
    transforming operational needs and requirements into an integrated system
    design for the Q-47.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD and Raytheon Company, Electronics Systems,
    Los Angeles, California. Further details are available on request.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Weapon Systems Acquisition high-risk area.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

                                       22
    Scope of the Review of the Management Control Program. In accordance
    with DoD Regulation 5000.2-R, acquisition managers are to use program cost,
    schedule, and performance parameters as control objectives to implement the
    requirements of DoD Directive 5010.38. Accordingly, we limited our review to
    management controls directly related to requirements generation, acquisition
    planning, program assessments, decision reviews, and test and evaluation.

    Adequacy of Management Controls. We identified a material management
    control weakness concerning the programmatic environmental, safety, and
    occupational health evaluation (PESHE) for the Q-47 as defined in DoD
    Instruction 5010.40. The management controls for program documentation
    were not adequate to ensure that the Firefinder Product Office periodically
    reviewed the PESHE for currency and compliance. Recommendation C.3., if
    implemented, will ensure that the Q-47 will have a PESHE that is up-to-date and
    in compliance with DoD guidance. We will provide a copy of this report to the
    senior official responsible for management controls in the Office of the Assistant
    Secretary of the Army (Financial Management and Comptroller).

    Adequacy of Management’s Self-Evaluation. To evaluate management
    controls for less-than-major Defense acquisition programs, the Firefinder
    Product Office conducts management control assessments for programs under its
    cognizance and provides the results of those assessments to the Deputy for
    System Acquisition for inclusion in the annual statement of assurance for the
    Army Communications and Electronics Command. For FY 2000, the
    Firefinder Product Office conducted a management control review of the Q-47.
    However, in its review, the Product Office did not identify the specific material
    management control weakness identified by the audit because the review by the
    Product Office did not include PESHE requirements.

Management Comments on Management Control Program
 Review and Audit Response
    Office of the Assistant Secretary of the Army (Acquisition, Logistics, and
    Technology) Comments. The Deputy for Systems Management and Horizontal
    Technology Integration, Office of the Assistant Secretary of the Army
    (Acquisition, Logistics, and Technology), provided comments concerning the
    “Management Control Program Review.” He stated that the audit identified the
    lack of a PESHE as a material management control weakness. In addition, he
    stated that the Directorate for Safety, Army Communications and Electronics
    Command, will complete a PESHE for the Q-47 and ensure that it is reviewed
    and updated annually. Further, he stated that the Product Manager, Firefinder,
    has conducted adequate environmental assessments on the proposed Q-47
    components and that, in the Army’s opinion, no material weakness is present.
    For the complete text of the Deputy’s comments, see the Management
    Comments section of this report.

    Audit Response. The actions of the Army will ensure that the Q-47 has a
    PESHE that is up-to-date and in compliance with DoD guidance. However, the
    lack of a PESHE for the Q-47 is a material management control weakness in
    accordance with DoD Instruction 5010.40. Specifically, the weakness resulted

                                        23
    from management controls by the Firefinder Program Office that did not ensure
    compliance with PESHE requirements for the Q-47 as well as other Firefinder
    programs under its cognizance, such as the AN/TPQ-37 and AN/TPQ-36
    Firefinder Radar Programs. Without up-to-date PESHEs that are in compliance
    with DoD guidance, the Firefinder Program Office would not be able to ensure
    that the Firefinder programs under its cognizance:

           •   describe the program manager’s strategy for meeting environmental,
               safety, and occupational health requirements;

           •   determine the individual responsible for ensuring that Firefinder
               programs and any future upgrades to those programs meet
               environmental, safety, and health requirements;
           •   track and document whether Firefinder programs are meeting
               environmental, safety, and health requirements;

           •   determine whether the Firefinder programs are experiencing any
               unforeseen environmental, safety, or health effects that violate local,
               state, or Federal law before the programs could cause lengthy
               program delays and affect mission and program cost; and

           •   proactively identify opportunities to reduce environmental life-cycle
               costs over the life span of the systems.

    Further, PESHEs that include program environmental responsibilities and a
    methodology to track and document the completion of the environmental
    strategy will help prevent environmental pollution. It is easier and cheaper to
    prevent environmental pollution than it is to cleanup and dispose of pollution
    after it occurs.

Prior Coverage
    During the last 5 years, the General Accounting Agency; the Inspector General,
    DoD; and the Military Department audit agencies have not issued reports
    specifically addressing whether management was cost-effectively readying the
    Q-47 for production.




                                        24
Appendix B. Definitions of Technical Terms
   Acquisition Category. An acquisition category is an attribute of an acquisition
   program that determines the level of review, decision authority, and applicable
   procedures for the program. The acquisition categories consist of I, major
   Defense acquisition programs; IA, major automated information systems; II,
   major systems; and III, all other acquisition programs. Acquisition Category I
   programs have two sub-categories: ID and IC. Acquisition IA programs also
   have two sub-categories: IAM and IAC.

   Acquisition Plan. An acquisition plan is a formal written document showing
   the specific actions necessary to implement the approach established in the
   approved acquisition strategy.

   Acquisition Program Baseline. The acquisition program baseline embodies the
   cost, schedule, and performance objectives for the program.

   Acquisition Strategy. An acquisition strategy is a business and technical
   management approach designed to achieve program objectives within the
   resource constraints imposed. It is the framework for planning, directing,
   contracting for, and managing a program. It provides a master schedule for
   research, development, test, production, fielding, modification, postproduction
   management, and other activities essential for program success. The acquisition
   strategy is the basis for formulating functional plans and strategies.

   Beyond Low-Rate Initial Production Report. A beyond low-rate initial
   production report states whether an initial operational test and evaluation
   performed was adequate and whether the results of such test and evaluation
   confirm that the items or components actually tested are effective and suitable
   for combat.

   Categorical Exclusion. A categorical exclusion is a NEPA document that
   certifies that neither an environmental assessment nor an environmental impact
   statement is required.

   Critical Operational Issue. A critical operational issue is an issue of
   operational effectiveness and operational suitability (not parameters, objectives,
   or thresholds) that must be examined in operational test and evaluation to
   determine the capability of the system to perform its mission. A critical
   operational issue is normally phrased as a question that must be answered to
   properly evaluate operational effectiveness or operational suitability.

   Environmental Assessment. An environmental assessment is a concise public
   document that provides sufficient evidence and analysis for determining whether
   to prepare an environmental impact statement or a finding of no significant
   impact.

   Environmental Impact Statement. An environmental impact statement is a
   public document prepared for actions that may have a significant impact on the
   quality of the human environment. An environmental impact statement is

                                       25
prepared in draft, filed with the Environmental Protection Agency, and
distributed to Government, organizations, and individuals for review and
comment. A final environmental impact statement includes pertinent comments
and information from the review process and is filed with the Environmental
Protection Agency and distributed to recipients of the draft environmental
impact statement. The environmental impact statement process is completed by
the publication in the Federal Register of a record of decision.

Estimate at Completion. An estimate at completion is actual direct and applied
indirect costs to date plus the estimate of cost for authorized work remaining.

Finding of No Significant Impact. A finding of no significant impact is a
document that presents the reasons why an action not otherwise categorically
excluded will not have a significant effect on the human environment, and for
which an environmental impact statement will not be prepared.

Initial Operational Test and Evaluation. Initial operational test and evaluation
is operational test and evaluation conducted on production or production-
representative articles, to support the decision to proceed beyond low-rate initial
production. Further, initial operational test and evaluation is conducted to
provide a valid estimate of expected system operational effectiveness and
operational suitability.

Life-Cycle Cost. Life-cycle cost is the total cost to the Government of
acquisition and ownership of that system over its useful life. In includes the
cost of development, acquisition, operating, support, and, where applicable,
disposal.

Limited User Test. A limited user test is any type of research, development,
test and evaluation funded operational test conducted between the engineering
and manufacturing design and the full-rate production phases other than the
dedicated initial operational test.

Materiel Developer. A materiel developer is a command or agency responsible
for research and development and production validation of an item.

Operating and Support Costs. Operating and support costs consist of those
resources required to operate and support a system, subsystem, or a major
component during its useful life in the operational inventory.

Pre-Planned Product Improvement. A pre-planned product improvement
includes improvements planned for ongoing systems that go beyond the current
performance envelope to achieve a needed operational capability.

Production-Representative System. A production-representative system is a
system that can be used for initial operational test and evaluation during the
engineering and manufacturing development phase of the acquisition process. A
production-representative system can also be a mature engineering development
model or a low-rate initial production system in its final configuration that
conforms to production specifications and drawings.



                                    26
Program. A program is an acquisition effort funded by research, development,
test and evaluation or procurement appropriations, or both, with the express
objective of providing a new or improved capability in response to a stated
mission need or deficiency.

Prototype. A prototype is an original or model on which a later system or item
is formed or based.

Rebaseline. Rebaseline is a process whereby the program office redefines the
program cost, schedule, and performance parameters that are the starting point
for subsequent efforts and progress measurement.

Record of Decision. A record of decision is a concise statement of the decision
made concerning the environmental impact statement.
Weapon System. A weapon system is an item or set of items that can be used
directly by warfighters to carry out combat or combat support missions to
include tactical communication systems.




                                   27
Appendix C. Beyond Low-Rate Initial
            Production Report and Major
            Defense Acquisition Program
            Policy
   The following discusses relevant policy concerning statutory and DoD policy on
   beyond low-rate initial production (LRIP) reporting and major Defense
   acquisition program classification.

   Beyond Low-Rate Initial Production Policy. Section 2399, title 10, United
   States Code, “Operational Test and Evaluation of Defense Acquisition
   Programs;” DoD Directive 5141.2, “Director of Operational Test and
   Evaluation (DOT&E),” May 25, 2000; and DoD Instruction 5000.2, “Operation
   of the Defense Acquisition System,” Change 1, January 4, 2001; DoD
   Regulation 5000.2-R, “Mandatory Procedures for Major Defense Acquisition
   Programs (MDAPs) and Major Automated Information System (MAIS)
   Acquisition Programs,” June 10, 2001, provide policy concerning beyond LRIP
   reports.

           Section 2399. Section 2399 requires that, at the conclusion of
   operational test and evaluation conducted for each major Defense acquisition
   program, DOT&E will prepare a report stating its opinion as to whether the test
   and evaluation performed was adequate and whether the results of the test and
   evaluation confirm that the items or components actually tested are effective and
   suitable for combat. The section also requires DOT&E to submit the report to
   the Secretary of Defense; the Under Secretary of Defense for Acquisition,
   Technology, and Logistics; and the congressional Defense committees. Further,
   the section adds that DoD may not proceed with a major Defense acquisition
   program beyond LRIP until the DOT&E has submitted the beyond LRIP report
   to the Secretary of Defense and the congressional Defense committees have
   received the report.

           DoD Directive. DoD Directive 5141.2 states that DOT&E will analyze
   the results of operational test and evaluation conducted on programs under
   DOT&E test and evaluation oversight and submit a report for operational test
   and evaluation to the Secretary of Defense; the Under Secretary of Defense for
   Acquisition, Technology, and Logistics; and the congressional Defense
   committees before DoD makes a decision to proceed beyond LRIP. The report
   addresses the adequacy of the test and evaluation performed and whether the
   results confirm the operational effectiveness, operational suitability, lethality,
   and survivability of the items or components actually tested.

          DoD Instruction. DoD Instruction 5000.2 states that, for DOT&E
   oversight programs, a system cannot be produced at full-rate until a beyond
   LRIP report has been completed and sent to Congress; the Secretary of Defense;
   and the Under Secretary of Defense for Acquisition, Technology, and Logistics.




                                       28
        DoD Regulation. DoD Regulation 5000.2-R states that DOT&E will
analyze the results of the initial operational test and evaluation conducted for
each major Defense acquisition program. At the conclusion of the initial
operational test and evaluation, DOT&E will prepare a report stating its opinion
as to whether the test and evaluation performed were adequate, and whether the
results of such test and evaluation confirm that the items or components actually
tested are effective and suitable for combat. Further, DoD Regulation 5000.2-R
requires DOT&E to submit the beyond LRIP reports to the Secretary of
Defense; the Under Secretary of Defense for Acquisition, Technology, and
Logistics; and the congressional Defense committees.

Major Defense Acquisition Program Policy. Title 10, United States Code and
DoD Instruction 5000.2 provide classification policy for a major Defense
acquisition program.
        Statutory Requirements. Section 139, title 10, United States Code,
“Director of Operational Test and Evaluation;” section 2399; and section 2430,
title 10, United States Code, “Major Defense Acquisition Program Defined;”
establish statutory requirements for a major Defense acquisition program.

               Section 139. Section 139(a)(2)(B) states that a major Defense
acquisition program is a DoD acquisition program that is a major Defense
acquisition program as defined by section 2430.

               Section 2399. Section 2399 states that a major Defense
acquisition program has the meaning of that term in section 139(a)(2)(B).

                Section 2430. Section 2430 states that a major Defense
acquisition program is a DoD acquisition program that the Secretary of Defense
has determined is not a highly sensitive classified program and has designated as
a major defense acquisition program; or that the Secretary of Defense has
estimated will require an eventual total expenditure for research, development,
test, and evaluation of more than $300 million (FY 1990 constant dollars) or an
eventual total expenditure for procurement of more than $1.8 billion (FY 1990
constant dollars).

        DoD Instruction. DoD Instruction 5000.2 states that a major Defense
acquisition program is a acquisition program that the Secretary of Defense has
determined is not a highly sensitive classified program and that the Under
Secretary of Defense for Acquisition, Technology, and Logistics has designated
as a major defense acquisition program or has estimated will require an eventual
total expenditure for research, development, test, and evaluation of more than
$365 million (FY 2000 constant dollars) or an eventual total expenditure for
procurement of more than $2.19 billion (FY 2000 constant dollars). DoD
Instruction 5000.2 also states that Acquisition Category I programs are those
programs that are major Defense acquisition programs or that the milestone
decision authority designates as an Acquisition Category I because of special
interest.




                                   29
Appendix D. Life-Cycle Cost Estimating and
            Reporting Policy
        The following discusses relevant policy concerning DoD, Army, and Federal
        Financial Accounting Standards policy on life-cycle cost estimating and
        reporting for environmental and disposal liabilities.

        DoD Policy. DoD Regulation 5000.2-R;* DoD Regulation 7000.14-R, “DoD
        Financial Management Regulation,” Volume 4, October 1999; DoD
        Manual 5000.4-M, “Department of Defense Cost Analysis Guidance and
        Procedures,” December 11, 1992; and the Defense Acquisition Deskbook
        provide life-cycle cost estimating and reporting guidance, including the
        reporting of environmental and disposal liabilities.

                DoD Regulation 5000.2-R. DoD Regulation 5000.2-R requires that
        life-cycle cost estimates be comprehensive and identify all costs for the
        development, production, and operation of a system regardless of the source of
        funding.

                DoD Regulation 7000.14-R. DoD Regulation 7000.14-R prescribes the
        accounting policy and principles for estimating and reporting in DoD financial
        statements the liabilities associated with the disposition of property, structures,
        equipment, munitions, and weapons, and the liabilities associated with the
        containment, treatment, or removal of contamination that could pose a threat to
        public health and the environment. Further, DoD Regulation 7000.14-R states
        that liability recognition will not be based on the availability of funds.

                DoD Manual. DoD Manual 5000.4-M requires that program offices
        identify the cost of any hazardous, toxic, or radiological materials that may be
        encountered or generated during system development, manufacture,
        transportation, storage, operation, and disposal. Furthermore, the guidance
        states that program offices should include the costs of demilitarization,
        detoxification, or long-term waste storage in the cost estimates.

               Defense Acquisition Deskbook. The Defense Acquisition Deskbook
        addresses life-cycle estimates in its “Scope of Life-Cycle Cost Estimates” and
        the “Cost Estimate Documentation Guidelines” sections. Specifically, the
        Deskbook states that life-cycle cost estimates should:

                         •   cover the entire planned life of a program and include all cost
                             categories (concept exploration, if applicable; demonstration
                             and validation; engineering and manufacturing, development,
                             production, and deployment; operations and support; and
                             demilitarization and disposal) and all appropriation accounts;
                             and


*
 DoD initially issued DoD Regulation 5000.2-R on March 15, 1996. It included the requirement to
prepare a comprehensive life-cycle cost estimate.

                                                 30
               •   address environmental costs, such as pollution prevention,
                   hazardous waste management, demilitarization and disposal of
                   equipment, and cleanup of real estate.

Army Policy. Army Pamphlet 70-3, “Army Acquisition Procedures,” July 15,
1999, and the “Department of Army Cost Analysis Manual,” May 2001 (the
Cost Manual), Chapter 6, “Environmental Quality Costing,” provide Army
policy on estimating and accounting for environmental life-cycle costs.

        Army Pamphlet 70-3. Army Pamphlet 70-3 states that the life-cycle
cost estimate for a program includes the total environmental, safety, and health
costs.

        Cost Manual. The Cost Manual states that the total ownership costs of
Army weapon systems must address and identify the environmental quality costs
associated with their development, production, operations, maintenance,
support, and disposal. Those costs also include the environmental quality costs
at installations that host the system operations, overhaul, and disposal, which
can be directly linked to the weapon system. Environmental quality costs for
any weapon system are those costs that specifically relate to activities in
pollution prevention, compliance, restoration, and conservation. Program
managers are to ensure that all environmental quality life-cycle costs are
included in the program estimate and to provide appropriate visibility to the
environmental quality life-cycle costs such that they support acquisition
decisions. The program estimate must include costs for environmental quality
related activities, products, and services and encompass all significant
environmental quality costs. Such costs may arise in any or all of the major
segments of the estimate and stem from activities for pollution prevention,
compliance, remediation, restoration, conservation, litigation, liability, added
management or overhead costs, and operation, maintenance, demilitarization,
and disposal of the system.

Federal Financial Accounting Standards Policy. The Statement of Federal
Financial Accounting Standards (SFFAS) No. 6, “Accounting for Property,
Plant, and Equipment,” requires that Federal agencies, beginning in FY 1998,
recognize a liability in agency financial statements for cleanup costs associated
with Federal mission property, plant, and equipment, including weapon
systems, when the agency places the property, plant, and equipment into
service. SFFAS No. 6 defines cleanup costs as those costs to remove, contain,
or dispose, or any combination of the three, of hazardous waste from material
or property that is permanently or temporarily shut down. In addition, cleanup
costs include decontamination, decommissioning, site restoration, site
monitoring, closure, and post closure costs.




                                    31
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Acquisition Initiatives)
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
Director, Operational Test and Evaluation

Department of the Army
Commander, Army Materiel Command
  Commander, Army Communications and Electronics Command
      Deputy for System Acquisition
         Product Manager, Firefinder
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
  Program Executive Office, Intelligence, Electronic Warfare, and Sensors
Assistant Secretary of the Army (Financial Management and Comptroller)
Commander, Army Training and Doctrine Command
  Commandant, Army Field Artillery School
Deputy Chief of Staff for Operations and Plans
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Contract Management Agency
   Commander, Defense Contract Management Command West

Non-Defense Federal Organization
Office of Management and Budget


                                          32
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         33
___________________________________________________________________



Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                             35
___________________________________________________________________




                             36
___________________________________________________________________




                             37
___________________________________________________________________




                             38
___________________________________________________________________



Director, Operational Test and Evaluation,
Comments




                             39
___________________________________________________________________



Department of the Army Comments




                             40
___________________________________________________________________




                             41
___________________________________________________________________




                             42
___________________________________________________________________




                             43
___________________________________________________________________




                             44
___________________________________________________________________




                             45
___________________________________________________________________




                             46
___________________________________________________________________




                             47
___________________________________________________________________




                             48
Audit Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report. Personnel of the Office of the
   Inspector General, DoD, who contributed to the report are listed below.

   Mary L. Ugone
   John E. Meling
   Jack D. Snider
   John J. Dzik
   Sean A. Davis
   Kevin W. Klein
   Jaime A. Bobbio
   Ann A. Ferrante
